           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      PAYMENTS TO INDIVIDUALS
      WHOSE NUMIDENT RECORD
      CONTAINS A DEATH ENTRY

      June 2009   A-06-08-18095




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      June 26, 2009                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Payments to Individuals Whose Numident Record Contains a Death Entry
           (A-06-08-18095)


           OBJECTIVE

           Our objective was to determine the appropriateness of benefits paid to individuals
           whose Numident record contained a date of death.

           BACKGROUND

           The Old-Age, Survivors and Disability Insurance (OASDI) program provides benefits to
           insured individuals who have reached their minimum retirement age, dependents of
           insured wage earners in the event the family wage earner dies, and disabled wage
           earners and their families. The Supplemental Security Income (SSI) program provides
           payments to qualifying individuals who are 65 or older, blind, or disabled.

           Section 205(r) of the Social Security Act requires that the Social Security
           Administration (SSA) match States' death records against SSA payment records to
                                                                  1
           identify and prevent erroneous payments after death. In addition, SSA matches death
           records from other Federal, State, and local agencies. SSA uses the Death Alert,
                                                                                           2
           Control, and Update System (DACUS) to receive and process death information, and
           records dates of death on the Numident. The Numident Master File houses, in Social
           Security number (SSN) order, personally identifiable information (PII) for each
           numberholder. 3 DACUS was designed to ensure that all benefits to deceased
                        4
           beneficiaries are terminated appropriately and produce a national record of death

           1
               42 U.S.C. § 405(r)(1).
           2
            SSA, Program Operations Manual System (POMS), GN 02602.060A and B, The Death Alert, Control
           and Update System (DACUS).
           3
               SSA, POMS, RM 00209.002A, Numident Query.
           4
             We use the term “beneficiary” throughout this report in reference to both OASDI beneficiaries and SSI
           recipients.
Page 2 - The Commissioner


information, known as the Death Master File (DMF). 5 Prior audits and investigations
have found that in some cases, SSA continues to pay benefits after death. Payments
                                                                     6
issued after a beneficiary’s death are considered improper payments. See Appendix B
for a discussion of our scope and methodology.

RESULTS OF REVIEW
SSA made payments to more than 6,000 beneficiaries for months or even years after
receiving notification the beneficiaries were deceased. SSA received death reports for
these beneficiaries and recorded dates of death on the Numident. However, SSA did
not record the death information on the beneficiary’s payment record or terminate
benefit payments to these individuals. Our audit results indicated that a large
percentage of these beneficiaries were actually alive, and that death entries recorded
on their Numidents were erroneous. However, our audit results also indicated that a
number of these beneficiaries were deceased, and that dates of death recorded on
their Numidents were accurate.

In January 2008, we identified 305 beneficiaries 7 who received OASDI and/or SSI
payments at the same time their Numident record indicated they were deceased.
                                                8                                      9
During our review, we verified the living status of 228 of these 305 beneficiaries. Our
review found that 88 of the 228 beneficiaries were, in fact, deceased, and that death
information appearing on the Numident was accurate. In these cases, SSA issued
payments to the beneficiaries 2 to 366 months after receiving notification the
beneficiary was deceased. SSA improperly paid these 88 deceased beneficiaries
approximately $2.0 million. We also confirmed that 140 of the 228 beneficiaries were
alive, and the death entries on the Numident were erroneous. The addition of
erroneous death entries can lead to benefit termination, cause severe financial hardship
and distress to affected individuals, and result in the publication of living individuals’ PII
in the DMF.




5
    SSA, POMS, GN 02602.060B.1.
6
    SSA POMS, GN 02401.917B, Limited Payability Death Cases – (Titles II and XVI).
7
    We obtained data used for this audit from 1 of the 20 (5 percent) payment record segments.
8
 Through interviews with the beneficiaries or their family members, or through review of available
documentation, we obtained sufficient evidence to determine whether the beneficiaries were living or
deceased.
9
 We did not confirm the status of the remaining 77 beneficiaries during our review. In these cases, we
attempted, but were not able, to make telephone contact or verify their living status.
Page 3 - The Commissioner


                          305 Beneficiaries in Current Pay Status
                         Whose Numident Contained a Death Entry
                                          As of January 2008

              Vital Status




                                                                88 Deceased
     Unverified           Verified                                 (39%)             140 Alive
        (77)               (228)
                                                                                      (61%)




Based on our results, we estimate that as of January 2008, about 6,100 beneficiaries in
                                                                                 10
current payment status had a date of death recorded on their Numident record. We
estimate that approximately 1,760 of the 6,100 beneficiaries were actually deceased,
and that SSA made approximately $40.3 million in improper payments to the deceased
beneficiaries after recording their date of death in SSA’s records. Further, we estimate
SSA would make approximately $6.9 million in additional improper payments over the
next 12 months if these discrepancies were not corrected. See Appendix C for a
discussion of our Case Results and Estimates.

BENEFICIARIES CONFIRMED DECEASED

SSA issued payments to deceased beneficiaries after recording valid dates of death on
the beneficiaries’ Numident record. We obtained confirmation that 88 beneficiaries in
current payment status were actually deceased and that dates of death recorded on the
Numident were correct. However, payments to these beneficiaries continued 2 to
366 months after SSA recorded the beneficiaries’ date of death on the Numident. SSA
issued approximately $2.0 million in improper payments to these 88 beneficiaries
through 2008 and would have issued approximately $347,000 in additional improper
payments over the next 12 months to the 39 beneficiaries discussed below if these
                                  11
discrepancies were not corrected.
10
  This estimate was based on 305 beneficiaries from 1 payment record segment multiplied by
20 payment record segments. In March 2009, we obtained an updated data extract from all 20 payment
record segments that identified 6,733 beneficiaries in current payment status whose Numident contained
a date of death. We provided pertinent beneficiary information to SSA’s Office of Operations.
11
  During the audit, we provided SSA with pertinent information related to these beneficiaries. As of
April 2009, SSA terminated benefit payments to all 39 beneficiaries.
Page 4 - The Commissioner


•     We verified that 39 beneficiaries were deceased. We confirmed 26 deaths through
      interviews with family members or other reliable parties. We verified an additional
      13 deaths by obtaining death certificates from the applicable State Bureau of Vital
      Statistics. Our analysis indicated that SSA continued to issue benefit payments to
      these 39 beneficiaries 12 to 312 months after receiving notification the beneficiaries
      were deceased and recording their dates of death on the Numident. 12 SSA issued
      approximately $1.3 million in improper payments to these individuals and would
      have issued approximately $347,000 in additional improper payments over the next
      12 months had these discrepancies not been corrected. Examples of our findings
      follow.

       A beneficiary died in April 1990. In May 1990, SSA recorded the beneficiary’s
        date of death on her Numident record. The Numident death entry referenced a
        New York City death certificate number. However, SSA did not record the death
        entry on the beneficiary’s payment record and continued issuing monthly benefit
        payments. As of October 2008, SSA’s records indicated this individual was in
        current payment status and received $1,185 in monthly retirement benefits. We
        requested and obtained the beneficiary’s death certificate from the City of
        New York Bureau of Vital Records. The death certificate confirmed the
        beneficiary died in April 1990. In October 2008, SSA terminated benefit
        payments to this deceased beneficiary. However, from May 1990 through
        October 2008, SSA issued 222 improper payments, totaling approximately
        $210,000, to this beneficiary. Our review of available information indicated that
        someone cashed these check payments. To date, SSA has not recovered any
        of the improper payments. The Office of the Inspector General (OIG) has
        arrested a suspect and is awaiting judicial action on this case.

       A beneficiary died in April 2000. In August 2000, SSA recorded the beneficiary’s
        date of death on her Numident record. However, SSA did not record the death
        entry on the beneficiary’s payment record and continued issuing monthly benefit
        payments. As of August 2008, SSA’s records indicated this individual was in
        current payment status and received $972 in monthly retirement benefits. We
        interviewed a family member who confirmed this beneficiary died in April 2000.
        We provided this information to SSA, and in October 2008, SSA terminated
        payments to this beneficiary. However, from April 2000 through October 2008,
        SSA issued 100 improper payments, totaling approximately $87,226, to this
        beneficiary. SSA electronically deposited these payments into the deceased
        individual’s bank account. Our review indicates that each month, the deposited
        funds were withdrawn from the bank account by the deceased beneficiary’s son.
        The OIG’s Office of Investigations contacted the son and he refunded the
        improper payments to SSA.

•     SSA terminated the improper benefit payments to 49 deceased beneficiaries
      included in our review. However, SSA continued to issue benefit payments to these
      49 beneficiaries 2 to 366 months after receiving notification the beneficiaries were
12
     We referred 37 of the 39 cases to our Office of Investigations for potential criminal investigation.
Page 5 - The Commissioner


      deceased and recording their dates of death on the Numident. Improper payments
      made to these individuals totaled approximately $733,487. 13 Examples of our
      findings follow.

       A beneficiary died in June 2001. In the same month, SSA recorded the
        beneficiary’s date of death on her Numident record. However, SSA did not
        record the death entry on the beneficiary’s payment record and continued issuing
        monthly benefit payments. As of January 2008, SSA’s records indicated this
        individual was in current payment status and received $782 in monthly widow’s
        benefits. SSA terminated the payment record in May 2008 and referred the case
        to the OIG’s Office of Investigations. However, from July 2001 through
        March 2008, 14 SSA issued 81 monthly payments to the deceased beneficiary,
        totaling approximately $57,528. Our review of available information indicated
        someone endorsed and deposited these check payments. In September 2008,
        the Department of the Treasury attempted to reclaim the payments, but was able
        to recover only 2 months of payments (April and May 2008 benefit payments).
        The OIG investigated the case and found the responsible individual. The
        individual has pled guilty and is awaiting sentencing.

       A beneficiary died in December 2006, and SSA recorded the beneficiary’s date
        of death on the Numident in March 2007. Improper payments continued to this
        beneficiary until SSA terminated benefits because of death in June 2008. From
        January 2007 through June 2008, SSA issued 18 improper payments totaling
        $23,076. SSA electronically deposited these payments into a bank account
        controlled by the deceased beneficiary’s representative payee. SSA established
        that the representative payee was liable for these overpayments. The OIG has
        an open investigation on this case.

We could not explain why various controls designed to prevent or detect payments to
deceased beneficiaries failed in these instances. For example, we determined that
SSA received verified Electronic Death Registration (EDR) reports 15 for 14 of the
88 beneficiaries. Upon receipt of verified EDR reports, SSA’s systems should have
                                                                16
automatically terminated payments to the deceased individuals. However, these
payments were not terminated. In another 34 cases, we determined SSA’s Office of
Operations staff received and input death reports. While processing these death
reports, SSA employees should have observed the deceased individuals received
benefit payments and taken action to terminate the payments. SSA staff recorded the
death entries on the Numident, but took no action to terminate benefit payments. In the

13
   As of December 2008, SSA recovered approximately $224,000 of these overpayments, primarily
through the Department of the Treasury reclamation process.
14
     Payments in April and May 2008 were recovered by the Department of the Treasury.
15
     States use EDR to submit death information to SSA.
16
     SSA, POMS, SM 00623.001B.2.d, Death Alert, Control, and Update System (DACUS).
Page 6 - The Commissioner


remaining 40 cases, the death reports SSA received were unverified EDR reports or
obtained through data matches with other agencies.

In all 88 cases, once the death reports were processed, DACUS should have generated
                                                                                            17
alerts to notify the appropriate field office to take action and resolve the discrepancies.
Field office staff are required to give prompt attention to all DACUS alerts to minimize or
prevent improper payments and instructed to take appropriate action to clear alerts
within 30 days. 18 We reviewed the Death Alert Tracking System (DATS) and did not
find pending alert tracking records for any of the 88 deceased beneficiaries. According
to SSA and the DATS website, once a pending alert is cleared, it is added to a
clearance list. DATS deletes the clearance list the following week. Since we found no
pending DACUS alerts for these beneficiaries, we believe the alerts were cleared
without proper action being taken to terminate the payment records.

We also observed that SSA did not implement compensating controls to periodically
identify and resolve these inconsistencies.

BENEFICIARIES CONFIRMED ALIVE

During our review, we confirmed that 140 beneficiaries in current payment status were
alive, and death entries on their Numident records were erroneous.

•     SSA confirmed that death entries on 72 beneficiaries’ Numident records were
      erroneous, and the beneficiaries were actually alive as of January 2008. SSA
      removed these erroneous death entries from the Numident.

•     We confirmed 35 beneficiaries were alive through in-person interviews in the
      beneficiaries’ homes or at a local SSA office. Upon verification, we informed SSA
      the beneficiaries were alive and requested the Agency remove the erroneous death
      entries from the Numident.

•     We confirmed another 33 beneficiaries were alive based on analysis of SSA’s
      records. Each of the 33 beneficiaries received auxiliary benefits under another
      family member’s earning record. The beneficiary’s own account number recorded
      on SSA’s payment records erroneously listed the SSN of an unrelated, deceased
      numberholder. It appeared most of these discrepancies were the result of
      transposition errors. We identified the correct SSN for each of these beneficiaries
      and found nothing further to indicate the beneficiaries were deceased. We notified
      SSA Operations staff and requested they take action to correct these errors.




17
  We did not verify that field offices received DACUS alerts related to the payment records included in our
review.
18
     SSA, POMS, GN 02602.065C.2, DACUS Alerts.
Page 7 - The Commissioner


Problems Persist for Living Beneficiaries with Erroneous Dates of Death

Erroneous death entries can lead to benefit termination, cause severe financial
hardship and distress to affected individuals, and result in the publication of living
individuals’ PII. SSA’s DMF contains detailed PII on deceased individuals, which is
provided to the Department of Commerce’s National Technical Information Service.
The National Technical Information Service then sells the DMF data. Customers can
purchase the complete data file and subscribe to monthly electronic additions,
                                                                        19
corrections, and deletions for an additional cost. Our prior audit work determined that
SSA inadvertently exposed the PII of thousands of living individuals through publication
of the DMF.

Many of the beneficiaries we contacted expressed persistent problems as a result of
the erroneous dates of death that appeared on their SSA records. In fact, some
beneficiaries expressed they were aware of this issue and attempted to correct it
multiple times only to find at a later date that the problem still existed. One individual
stated he sought assistance from his congressional representative to correct this
problem. Others expressed problems with Federal and State agencies, as well as with
private pension plans. To illustrate, several beneficiaries had problems with the Internal
Revenue Service and stated they did not receive their 2008 Economic Stimulus Refund
checks as a result of the death reporting error, and others stated they had to prove to
the Internal Revenue Service they were not deceased before receiving a refund. In
another example, a retired beneficiary expressed a recurring problem when he could
not receive funding from his private pension plan since he was declared deceased.
Each time he attempted to correct the issue, the problem recurred when the pension
plan updated its death information.

77 BENEFICIARIES’ STATUS NOT CONFIRMED

We attempted to verify the living status of all 305 beneficiaries through review of SSA
data, contact with the beneficiaries using the telephone numbers reflected on SSA’s
payment records, or through in-person interviews with beneficiaries or family members.
However, we could not confirm the living status for 77 of the 305 beneficiaries. As of
December 2008, the 77 beneficiaries received benefit payments 15 to 430 months after
SSA recorded dates of death on their Numident record. SSA paid these beneficiaries
more than $5.7 million after recording their dates of death. SSA records currently
contain contradictory information regarding the vital status of these beneficiaries. Until
the living status of these beneficiaries is verified, SSA has no assurance these
payments are valid.




19
   SSA/OIG, Personally Identifiable Information Made Available to the General Public Via the Death Master
File (A-06-08-18042), June 2008.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
SSA continued to issue payments to more than 6,000 beneficiaries after receiving
reports the beneficiaries were deceased and recording dates of death on the
beneficiaries’ Numident record. We estimate that approximately 1,760 of the
6,100 beneficiaries are actually deceased, and that SSA paid approximately
$40.3 million in questionable benefits to these deceased beneficiaries. In addition, we
estimated SSA would issue approximately $6.9 million in additional improper payments
over the next 12 months if these discrepancies were not corrected.

On March 11, 2009, we obtained an updated data extract from all 20 payment record
segments that identified 6,733 beneficiaries 20 in current payment status whose
Numident record contained a date of death. We provided the data to SSA Operations
and recommend that SSA:

1. Determine the current living status of all 6,733 beneficiaries.
2. Terminate benefits, recover improper payments, and refer potential instances of
   fraud to the Office of Investigations for all beneficiaries determined to be deceased
   during living status verifications.
3. Remove erroneous dates of death on the beneficiaries’ Numident record for all
   beneficiaries determined to be alive during living status verifications.
4. Periodically identify all beneficiaries with a death indicator on their Numident
   receiving benefits and take action to determine the living status for these individuals.
   This could be accomplished either by improving follow-up on DACUS alerts or
   implementing a new periodic review.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with recommendations 1 through 3. SSA partially agreed with
recommendation 4 and stated it would investigate the alert and follow-up systems to
assess how the cases were missed by current controls. If SSA cannot correct the
limitation of the current system interface, it will then assess the feasibility of an
additional alert system or recurring file match runs. We believe SSA’s response and
planned actions adequately address our recommendations. The full text of SSA’s
comments is included in Appendix D.




                                                         Patrick P. O’Carroll, Jr.
20
 Includes 5,917 OASDI beneficiaries, 735 SSI recipients, and 81 individuals concurrently entitled to both
OASDI and SSI payments.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Case Results and Estimates
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
DACUS    Death Alert, Control, and Update System
DATS     Death Alert Tracking System
DMF      Death Master File
EDR      Electronic Death Registration
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
PII      Personally Identifiable Information
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSN      Social Security Number
U.S.C.   United States Code
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related
    to death reports and erroneous deaths.

•   Reviewed Federal law and regulations relating to death matches with State
    agencies.

•   Identified 305 current payment status beneficiaries and recipients (as of
    January 2008) from one randomly selected payment record segment who had a
    date of death on their Numident record.

•   Reviewed the Master Beneficiary Record, Supplemental Security Record, and
    Numident for the 305 selected records.

•   Identified 33 beneficiaries whose payment records were erroneously
    cross-referenced to deceased individuals, but were actually alive. We referred
    these cases to SSA’s Office of Operations for payment record correction.

•   Identified the remaining 272 beneficiaries’ payment status, beginning in July 2008,
    and determined whether the dates of death that appeared on the Numident in
    January 2008, remained on the Numident.

     We identified 49 beneficiaries whose payment records were terminated due to
      death. In each case, the death entry that appeared on the Numident in
      January 2008 was valid. For each of these beneficiaries, we determined the
      number of improper payments SSA issued after recording the death entry on the
      Numident.

     We identified 72 beneficiaries whose death entries were removed from the
      Numident by SSA. SSA should remove a beneficiary’s death entry only after
      verifying the individual is actually alive. We accepted SSA’s determination the
      individuals were alive and did not perform additional verification.

     We grouped the remaining beneficiaries into one of the following categories.

         53 beneficiaries with residential addresses within 100 miles of an Office of
          Audit location 1 – We attempted to contact a family member or the beneficiary
1
 The Office of Audit has staff in New York, New York; Baltimore, Maryland; Philadelphia, Pennsylvania;
Dallas, Texas; Birmingham, Alabama; Atlanta, Georgia; Chicago, Illinois; Richmond, California; Falls
Church, Virginia; Boston, Massachusetts; and Kansas City, Missouri.


                                                  B-1
          in person to confirm their living status. If the individual was deceased and a
          family member confirmed their status, no further work was necessary.
          However, when we were able to make contact with the beneficiary, we
          conducted a face-to-face interview to confirm their living status. We made
          initial contact by telephone, and if the telephone number was not listed on
          their SSA record (or was invalid), we attempted to locate a valid number via
          the internet or through a public records search. We mailed certified letters
          with delivery confirmation and referred unsuccessful attempts to SSA.

        18 beneficiaries with State death certificate information reported on their
         Numident record – We initially attempted to contact the beneficiaries’ family
         member(s) by telephone to verify their deceased status. If attempts were
         unsuccessful, we requested death certificates from the corresponding State’s
         Bureau of Vital Statistics.

        Other beneficiaries with residential addresses more than 100 miles from an
         Office of Audit location – We conducted in-person interviews with
         six beneficiaries living in Southern California. We attempted to contact the
         remaining beneficiaries, or a family member, by telephone. We did not
         attempt to conduct in-person interviews with the remaining beneficiaries from
         this group due to the lack of proximity to an Office of Audit location.

•   Reviewed the current payment records, in February 2009, for beneficiaries whose
    living status was not verified to determine whether SSA had taken subsequent
    action to confirm their living status.

•   Quantified improper payments and funds at risk.

We performed our audit between July 2008 and February 2009 at SSA’s Regional
Office in Dallas, Texas. The entity audited was the Office of the Deputy Commissioner
for Operations. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We tested the
data obtained for our audit and determined it was sufficiently reliable to meet our
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                           B-2
                                                                     Appendix C

Case Results and Estimates
We identified 305 beneficiaries from 1 payment record segment receiving benefits
despite having a date of death on their Numident record. Each of these beneficiaries
received Old-Age, Survivors and Disability Insurance (OASDI) and/or Supplemental
Security Income (SSI) payments in January 2008 although the Social Security
Administration’s (SSA) Numident indicated the beneficiaries were deceased. During
the audit, we verified that 88 of the 305 beneficiaries were actually deceased. In each
of the 88 cases, SSA received death reports and recorded dates of death on the
beneficiaries’ Numident record. However, SSA did not record the death entry on the
beneficiaries’ payment record and continued to issue benefit payments for 2 to
366 months after the beneficiaries’ deaths. We also verified that 140 of the
305 beneficiaries were alive and that SSA erroneously recorded death information on
the Numident. We did not confirm the living status for the remaining 77 beneficiaries.

                        Completed Living Status Verifications
     Beneficiaries               Beneficiaries             Beneficiaries’
  Confirmed Deceased            Confirmed Alive        Status Not Confirmed     Total
           88                         140                       77               305


Through 2008, SSA issued approximately $2.0 million in improper payments to
88 deceased beneficiaries included in our review and would have paid approximately
$347,000 in additional improper payments to 37 of these beneficiaries over the next
12 months had these discrepancies not been corrected. The chart below illustrates the
questioned costs paid to the 88 deceased beneficiaries.


                   Improper Payments to Deceased Beneficiaries
                                                          Improper Payments
        Beneficiaries    Improper Payments Issued         Over Next 12 Months
             88                  $2,012,934                     $346,827




                                            C-1
Our audit results were based on our review of data from 1 of 20 payment record
segments—or 5 percent of the total population of beneficiaries who received OASDI
and/or SSI payments. To estimate the total questioned costs applicable to all payment
record segments, we multiplied the questioned payment amount for one segment times
the total number of segments (20) in our population. Based on our results, we estimate
SSA issued approximately $40.3 million in improper payments to 1,760 deceased
beneficiaries. In addition, we estimated SSA would issue approximately $6.9 million in
additional improper payments to deceased beneficiaries over the next 12 months if
these discrepancies were not corrected.

                Estimated Improper Payments for All 20 Segments
                                                                             Improper
                                                             Improper
                                              Number of                    Payments Over
                                                             Payments
                                             Beneficiaries                     Next 12
                                                              Issued
                                                                               Months
          Beneficiaries Confirmed Deceased        88         $2,012,934       $346,827
          Multiplied by 20 Payment Record
                                               1,760         $40,258,680     $6,936,540
                                 Segments




                                         C-2
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY


 MEMORANDUM


 Date:     June 12, 2009                                                     Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Payments to Individuals Whose
           Numident Record Contains a Death Entry" (A-06-08-18095)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We
           appreciate OIG’s efforts in conducting this review. Attached are our responses to the
           report findings and recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension
           54636.

           Attachment:
           SSA Response




                                                      D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PAYMENTS TO INDIVIDUALS WHOSE NUMIDENT RECORD CONTAINS
A DEATH ENTRY” (A-06-08-18095)



We reviewed the subject report and agree with the findings and recommendations.
Below are our responses to the specific recommendations.

Recommendation 1

Determine the current vital status of all 6,733 beneficiaries (who were in current
payment status in March 2009 although their Numident record contained a death entry).

Comment

We agree. We will investigate the vital status of these 6,733 beneficiaries as quickly as
possible based on available resources.

Recommendation 2

Terminate benefits, recover improper payments, and refer potential instances of fraud
to the Office of Investigations for all beneficiaries determined to be deceased during
living status verifications.

Comment

We agree. We will take action as quickly as possible based on available resources.

Recommendation 3

Remove erroneous dates of death on the beneficiaries’ Numident record for all
beneficiaries determined to be alive during living status verifications.

Comment

We agree. Based on available resources and our efforts on the first recommendation,
we will take action as soon as possible.

Recommendation 4

Periodically identify all beneficiaries and recipients with a death indicator on their
Numident receiving benefits and take action to determine the living status for these
individuals. This could be accomplished either by improving follow-up on Death Alert,
Control, and Update System alerts or implementing a new periodic review.




                                           D-2
Comment

We partially agree. We agree that there should be adequate alert systems in place to
ensure the posting of correct death information to Numident records. However, we are
concerned that additional alerts may duplicate systems processes that are already in
place. We will investigate the alert and follow-up systems to assess how these cases
were missed by our current controls. If we cannot correct the limitation of our current
system interface, we will then assess the feasibility of an additional alert system or
recurring file match runs.




                                          D-3
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Clara Soto, Senior Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-08-18095.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
